OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SUDAN’S
ROAD INFRASTRUCTURE
ACTIVITIES
AUDIT REPORT NO. 4-650-09-009-P
September 28, 2009




PRETORIA, SOUTH AFRICA
September 28, 2009

MEMORANDUM

TO:                  USAID/Sudan Mission Director, William Hammink

FROM:                Regional Inspector General/Pretoria, Nathan Lokos /s/

SUBJECT:             Audit of USAID/Sudan’s Road Infrastructure Activities (Report No. 4-650-
                     09-009-P)

This memorandum transmits our final report on the subject audit. The report includes
four recommendations to strengthen USAID/Sudan’s road infrastructure activities. We
have considered management’s comments on the draft report and have incorporated
them into the final report, as appropriate. Those comments have been included in their
entirety in appendix II.

Based on management’s comments, we consider that a management decision has been
reached on recommendation nos. 1, 2, and 3. Please provide the Audit, Performance,
and Compliance Division in the USAID Office of the Chief Financial Officer
(M/CFO/APC) with the necessary documentation to achieve final action.

In light of management’s comments, we consider that a management decision has not
been reached on recommendation no. 4. We ask that you provide us with written notice
within 30 days regarding any additional information related to actions planned or taken to
implement recommendation no. 4.

I want to express my sincere appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
P.O. Box 43, Groenkloof
0027, Pretoria, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     Juba-Nimule Road Is 8 Months Behind
     Schedule ..................................................................................................................... 7

     Estimated Cost of Juba-Nimule Road
     Has Increased Significantly......................................................................................... 8

     Problems in Bridge Construction
     Have Contributed to Higher Costs ............................................................................ 13

     Current Branding Strategy Is Ineffective ................................................................... 17

     Provision for Executive Order on
     Terrorism Financing Omitted from
     Subcontracts ............................................................................................................. 18

Evaluation of Management Comments ....................................................................... 20

Appendix I – Scope and Methodology ........................................................................ 21

Appendix II – Management Comments ....................................................................... 24

Appendix III – Additional Background – Sudan Infrastructure Services Project.... 26
SUMMARY OF RESULTS
USAID/Sudan’s major road infrastructure activity is upgrading the 192 kilometer Juba-
Nimule road from a gravel road to a paved road. The main goals of the Juba-Nimule
road project are to foster economic growth by increasing capacity for trade, facilitating
refugee resettlement and the transportation of humanitarian aid, and strengthening
southern Sudanese capabilities in road maintenance and construction. This activity is
one initiative under the Sudan Infrastructure Services Project, a 5-year, $700 million
indefinite quantity contract 1 through September 2011 with the Louis Berger Group, Inc.
As of June 2009, $66.2 million had been obligated and $36.1 million disbursed pursuant
to the Juba-Nimule road task order. Currently, the road has a projected total cost of
$163.8 million and is scheduled to be completed in November 2010 (see pages 2–4).

While USAID/Sudan’s activities thus far have been mainly preparatory in nature, the
Juba-Nimule road project is likely to achieve its main goals. Preliminary actions, such as
road grading and bridge repairs, accomplished by local firms, have already reduced
travel times and transport costs, leading to increased traffic volumes and business
activity. Newly established villages attest to the road’s use in refugee resettlement.
Moreover, there was widespread confidence that paving the road would yield even more
benefits (see pages 5–6).

Nevertheless, the implementation of the project has suffered a number of setbacks. The
project is currently 8 months behind schedule, primarily because policy questions arose
during procurement of the main road construction subcontracts (pages 7–8). Moreover,
the total cost has risen from an estimated $87 million in the road’s feasibility study to the
current estimate of $163.8 million. This increase was due to a number of factors,
including erroneous assumptions and a lack of technical data in the feasibility study (see
pages 8–13). Problems in bridge construction also contributed to higher costs (pages
13–17). Finally, the audit determined that (1) none of the people interviewed along the
Juba-Nimule road were aware that this road was being financed by the United States
and (2) several contracts between the Louis Berger Group, Inc., and its subcontractors
omitted required antiterrorism language (pages 17–19).

To address these problems, the audit recommends that USAID/Sudan develop policies
and procedures to provide adequate funding, scheduling, and instructions for future
feasibility studies (page 12); retain an engineering consultant through the completion of
the Juba-Nimule road (page 17); revise its branding strategy to focus more on direct
communication with project beneficiaries (page 18); and ensure that subcontracts are
modified to include required antiterrorism language (page 19).

USAID/Sudan agreed with all recommendations and proposed completion of planned
remedial actions by February 28, 2010. However, management decisions were reached
on only three of the four recommendations (page 20).

Management comments have been included in their entirety in appendix II.

1
 An indefinite quantity contract provides for an indefinite quantity, within stated limits, of supplies
or services during a fixed period. The specific supplies or services are procured through task
orders issued under the indefinite quantity contract.


                                                                                                     1
BACKGROUND
Sudan is the highest priority country in sub-Saharan Africa for U.S. foreign assistance,
and one of the U.S. Government’s highest foreign policy imperatives overall. Sudan’s
2005 Comprehensive Peace Agreement attempts to address historic regional disparities
between underdeveloped regions and the capital, Khartoum. USAID/Sudan’s primary
goal is to nurture peace through the successful implementation of the peace agreement.

Among other things, the Comprehensive Peace Agreement provides for a 6-year interim
period during which southern Sudan is to be governed by an autonomous entity called
the Government of Southern Sudan, while central authority is to be divided between the
Sudanese government and Government of Southern Sudan. After the interim period,
the southern Sudanese are to decide through a referendum whether to become
independent or continue as a self-governing component of a unified Sudan. Thus, U.S.
assistance is intended to help southern Sudan became a prosperous and viable entity in
whatever political arrangement its citizens choose in 2011.

Nature and Purpose of Road Infrastructure Activities

One of southern Sudan’s most acute challenges is the lack of adequate roads. Even
though it is slightly larger than the countries of France and Belgium combined, southern
Sudan has less than 50 kilometers of paved roads. As a result, one of USAID/Sudan’s
many efforts is its road infrastructure activities. According to the mission, these activities
are intended to foster economic growth by increasing trade. Moreover, these activities
are also designed to contribute to national stability by facilitating the transport of
humanitarian aid as well as the resettlement of refugees and displaced persons. In
conjunction with these efforts, the mission also aims to increase the capacity of the
southern Sudanese public and private sectors in different facets of road maintenance
and management.

Specifically, the mission’s main road infrastructure activities consist of the following:

   •   Rehabilitation of the 185 kilometer road from Yambio-Tambura in Western
       Equatoria
   •   Emergency repairs to the 75 kilometer road from Dabio-Ezo, also in Western
       Equatoria
   •   Construction of the existing 192 kilometer gravel road from Juba-Nimule in
       Central and Eastern Equatoria to a paved standard

The road repairs in Western Equatoria were being conducted through a cooperative
agreement with the United Nations Office of Project Services. Prior to implementing this
agreement, the Yambio-Tambura road had deteriorated significantly due to lack of
maintenance and could not provide safe transport during the 6-month rainy season. The
goal of both the Government of Southern Sudan and USAID was to upgrade this road to
all-weather accessibility using a gravel surface. Meanwhile, emergency repairs on the
road from Dabio to Ezo, a town on the border with the Central African Republic, were
intended to provide a minimum level of all-weather accessibility for 1 to 2 years.
According to mission records, as of June 2009, $37.9 million had been obligated and



                                                                                            2
$14.3 million disbursed for these activities. The total life of project cost for the United
Nations Office of Project Services roads is estimated at $37.9 million.

The Juba-Nimule Road

The Juba-Nimule road was USAID/Sudan’s major road infrastructure activity in scope,
cost, and the priority accorded to it by Government of Southern Sudan. Originally built
from 1928 to 1932, the road was upgraded to gravel standards in the early 1970s but
was neglected for more than 22 years of civil war. The road connects Juba, the seat of
the southern Sudanese government, with Uganda. From there, the road provides
access to Kenya and the port of Mombasa.

Reflecting its importance to southern Sudan, the Juba-Nimule road, in contrast to
USAID’s road projects in Western Equatoria, is to be reconstructed as a paved road. In
addition, the route currently contains seven Bailey bridges, which are scheduled to be
replaced by new composite structures. 2

The road is one facet of USAID/Sudan’s Sudan Infrastructure Services Project, a 5-year,
$700 million project that encompasses reconstruction and rehabilitation activities in
transport, urban development, water, sanitation, energy, and public buildings. The
overall project is implemented through an indefinite quantity contract with the Louis
Berger Group, Inc. Specific activities are undertaken via task orders, which are issued
on either a cost-plus-fixed-fee or firm-fixed-price basis. 3 The task order authorizing
construction of the Juba-Nimule road, Task Order 2, is a cost-plus-fixed-fee task order.
According to mission records, as of June 2009, $66.2 million had been obligated and
$36.2 million disbursed pursuant to the task order. The road currently has a projected
cost of $163.8 million and an estimated completion date of November 2010.




The photograph on the left is of an existing, repaired Bailey bridge; the photograph on the right
shows one of the new bridges. Both photographs taken on the Juba-Nimule road. (Regional
Inspector General/Pretoria, April 28, 2009.)



2
   These composite structures are composed of structural steel with a steel reinforced concrete
deck travelway.
3
  In a firm-fixed-price task order, the firm fixed price represents the total amount of the task order
and the maximum price the contractor may be paid to perform the services, reports, or other
deliverables in the task order. In a cost-plus-fixed-fee task order, the total estimated cost plus a
fixed fee represents the total amount of the task order and the maximum amount the contractor
may be paid without advance approval of the U.S. Government.


                                                                                                    3
USAID/Sudan’s major activities on the Juba-Nimule road thus far include repairing the
existing Bailey bridges and grading the entire length of the road. In addition,
construction of the replacement bridges is in progress. The subcontracts to actually
build and pave the road were signed in April 2009. This audit focuses primarily on
construction of the Juba-Nimule road.

AUDIT OBJECTIVE
As part of its fiscal year 2009 audit plan, the Regional Inspector General/Pretoria
performed this audit to answer the following question:

   •   Are USAID/Sudan’s road infrastructure activities achieving their main goals?

Appendix I contains a discussion of the audit’s scope and methodology.




Photograph of a Bailey bridge on the right with abutment for the replacement bridge being
constructed on the left. Photograph taken on the Juba-Nimule road. (Regional Inspector
General/Pretoria, April 28, 2009.)




                                                                                       4
AUDIT FINDINGS
Are USAID/Sudan’s road infrastructure activities achieving their
main goals?
In general, USAID/Sudan’s road infrastructure activities were laying the foundation for
future economic growth, facilitating humanitarian aid and refugee resettlement, and
increasing southern Sudanese capabilities in road maintenance and construction.
However, the mission’s primary road infrastructure activity—construction of the 192
kilometer road from Juba to Nimule—was behind schedule and estimated to cost
significantly more than originally anticipated. This section addresses the impact of the
mission’s activities thus far, while cost, scheduling, and other issues are detailed in later
sections of this report.

Impact of Activities

USAID/Sudan’s activities on the Juba-Nimule road to date, while mainly preparatory in
nature, were nonetheless creating an environment conducive for future economic growth
by reducing travel time and transport costs. For example, in Nimule the audit team
interviewed four truckers and a taxi driver, who reported that their travel times on the
road decreased an average of nearly 40 percent since the grading and bridge repairs.
This report corroborated information from mission and Louis Berger Group, Inc. (Berger)
officials. Likewise, officials with the Government of Southern Sudan’s Ministry for
Transport and Roads stated that travel times had decreased in the wake of
improvements to the Juba-Nimule road, resulting in increased commercial traffic.
Respondents also indicated that it was generally cheaper to operate their vehicles after
the road improvements. In addition, one interviewee stated that taxi fares had
decreased from 60 Sudanese pounds to 50 for the Juba-Nimule trip ($30 to $25).

Interviews with storekeepers, peddlers, and other Sudanese provided additional
anecdotal evidence of increased economic activity. These respondents overwhelmingly
indicated that they had witnessed greater traffic volume and more shops being opened,
and personally experienced increased sales since the road improvements. Moreover,
most of these people also expected that paving the road would lead to even greater
economic benefits.

Furthermore, observations along the entire route gave credence to these reports. For
example, the audit team saw numerous trucks lined up to cross the Nile River in Juba,
as well as significant truck and bus traffic along the road to Nimule, including three
United Nations vehicles. The trip also showed evidence of new villages established by
returning refugees and internally displaced persons, confirming information received
from Berger and Government of Southern Sudan officials as well as from United Nations
press releases regarding resettlement and the use of the Juba-Nimule road.

In addition, the audit team observed the bridge repairs that had been made. According
to both mission and Berger officials, the existing bridges had become increasingly
unserviceable and would not allow loaded trucks to pass safely. Moreover, one of the
bridges was closed for fear of collapse. The bridges were repaired using steel plates



                                                                                           5
that were salvaged from a collapsed span of the Nile River bridge in Juba. According to
Berger officials, not only did these repairs allow trucks to carry increased loads of up to
120 tons, but they also permitted the road to remain open while the replacement bridges
were being built. In addition, both the bridge repairs and road maintenance were
accomplished by Sudanese firms, generating both income and experience for local
workers and companies.




Photographs of Bridge #5 (Kit Bridge) before repair (left) and after repair (right). (The Louis Berger
Group, Inc., January 2008.)

Moreover, expectations of greater economic growth upon completion of the paved road
were widespread. In addition to interviews with users of the road, officials from freight
companies interviewed by the contractor for a baseline survey reported that the paved
Juba-Nimule road will have a significant impact on transport costs as well as the
economy of southern Sudan. The audit team also interviewed officials from the
Government of Southern Sudan, who seconded this outlook as well.

Just as important, the construction of the Juba-Nimule road is taking place within the
context of increased regional infrastructure investments. For example, Uganda, with
World Bank assistance, is constructing a 123 kilometer paved road from Soroti to Lira in
northern Uganda. According to a newspaper interview with the Ugandan Minister of
Transport and Works, this road, which lies on the route from Mombasa, Kenya, 4 to
Nimule, is the shortest route to Sudan. The minister expects that completion of this road
will significantly increase traffic volume headed to Nimule from Mombasa.

USAID and its partners operate within the context of an intrinsically difficult environment
in southern Sudan, characterized by frequent and unique security and logistical
obstacles. While the Juba-Nimule road project is well conceived and is likely to
eventually bring significant benefits to the people of the region, the implementation of the
project has been challenging. Some of these challenges are discussed in the following
sections.




4
    The Port of Mombasa is Kenya’s main seaport.


                                                                                                    6
Juba-Nimule Road Is 8 Months
Behind Schedule

Summary: The completion of the Juba-Nimule road was initially planned for March
2010. However, current estimates place the completion date in November 2010. This
delay was caused principally by policy questions that arose during the procurement of
the road construction subcontract. As a result of this delay, the overall estimated cost of
the Juba-Nimule road increased by more than $7 million.

The fiscal year (FY) 2007–2008 work plan for Task Order 2 of the Sudan Infrastructure
Services Project called for the Juba-Nimule road to be completed in March 2010.
However, officials from both the mission and the Louis Berger Group, Inc. (Berger), now
estimate that the road will not be completed until November 2010. Thus, the Juba-
Nimule road is 8 months behind schedule.

The FY 2007–2008 work plan envisioned that construction would be subcontracted
using a “design-build” contract in order to complete the road in the most expeditious
manner. A design-build contract is one in which design and construction activities are
combined in a single contract with one contractor. According to a USAID consultant, this
type of contract requires firms with significant engineering resources and expertise in
order to adequately support both functions.

Despite this plan, a delay of approximately 5 months resulted from policy questions that
arose during the procurement of the design-build subcontract. 5 These questions
included uncertainty regarding the application of USAID rules concerning the eligibility of
potential contractors, as well as whether certain companies were parastatal enterprises.
These uncertainties arose after a prequalification exercise was held to identify firms that
were technically and financially qualified to act as a Berger subcontractor on this project.

The mission then engaged USAID legal advisers in both Sudan and Washington, DC, to
determine if any legal or policy impediments existed in regard to any of the seven
prequalified companies. Other than the parastatal exclusion, 6 which, according to a
Berger official, affected one applicant, no other grounds for disqualification of any of the
other firms were found.

To diminish the possibility that a questionable award could still be made, the decision
was subsequently made to change the contract modality from design-build to design-bid-
build. 7 This modality permitted smaller firms to compete for the contract because the
engineering resources required for the design portion were no longer needed, since the
design was now being performed by Berger officials.               More important, the

5
  Notably, this delay, which lasted from October 2008 through February 2009, occurred during the
dry season, which is the most favorable time for construction activities.
6
   22 CFR 228.33 states in its entirety: “Firms operated as commercial companies or other
organizations (including nonprofit organizations other than public educational institutions) which
are wholly or partially owned by a foreign government or agency thereof are not eligible for
financing by USAID as contractors or subcontractors, except if their eligibility has been
established by a waiver approved by USAID in accordance with §228.54. This does not apply to
foreign government ministries or agencies.”
7
  “Design-bid-build” refers to the traditional delivery method in which design and construction are
sequential and contracted for separately with two contracts and two contractors.


                                                                                                 7
prequalification criteria for the design-bid-build modality was revised to include a
provision specifying that there should be minimum threshold requirements for use of
southern Sudanese labor as well as subcontracting with southern Sudanese companies.

While the time required for legal research, road design, and a second prequalification
exercise caused the road construction subcontracts to be delayed by 5 months, an
additional delay of about 2 months was created by cash flow concerns at the mission.
According to a mission official, approximately $85 million in FY 2009 funds was available
for the project, which was deemed to be insufficient to cover the costs projected by
Berger. Consequently, the award was delayed by 2 months in order to conserve funds
until FY 2010 funding became available.

The effect of these delays increased the overall estimated cost of the project to USAID
by about $7.1 million. Since Berger staff had already been deployed and were engaged
in preliminary bridge repairs and other preparatory work prior to the delays described
above, this figure was composed of Berger’s projected salaries, overhead, security
charges, and other direct costs, plus the associated fee on those incremental amounts,
which would otherwise not be incurred if the project was completed on schedule. Audit
team inquiries of Government of Southern Sudan officials indicated that they were
unconcerned about the delay and, apart from not having the road completed sooner,
they did not cite any other adverse effects.

Since all policy questions have been resolved and the road construction subcontracts
have been issued, this audit is not making any recommendations on this matter.

Estimated Cost of Juba-Nimule
Road Has Increased Significantly

Summary: Federal law requires reasonable cost estimates before USAID initiates
certain projects. Despite this requirement, the projected cost of the Juba-Nimule road
increased 88 percent over the estimate in the road’s feasibility study. A major portion of
this increase arose from the absence of sufficient technical data, which resulted in an
underestimate of the material required. Moreover, erroneous initial assumptions also
contributed to the increased projected costs. As a result, the road is costing millions of
dollars more than originally estimated, and USAID operational planning was hindered.

Section 611 of the Foreign Assistance Act of 1961, as amended, requires a “reasonably
firm estimate” of a project’s cost to the U.S. Government prior to any agreement or grant
incurring an obligation of $500,000 or greater. USAID engineers in Washington, DC,
interpreted this to mean that such an estimate should be within 10 percent of the actual
costs in a normal operating environment, or within 15 percent in a difficult one, such as
Sudan. The May 2007 feasibility study for the Juba-Nimule road, which was prepared by
the Louis Berger Group, Inc. (Berger), and was completed prior to the initial obligation of
funds under Task Order 2, estimated a maximum total cost of $87 million for upgrading
the road to a double bituminous surface treatment standard. 8 However, as of April 6,

8
  Double bituminous surface treatment is a common type of pavement surfacing construction that
involves two applications of asphalt binder material and mineral aggregate over a prepared
surface. The treatment resists traffic abrasion and provides a water-resistant wearing cover over
the underlying pavement structure.


                                                                                               8
2009, the road had an estimated budget of $163.8 million, or an increase of 88 percent
over the amount in the feasibility study.

Erroneous Assumptions – This increase was partly attributable to erroneous initial
assumptions. For example, two key assumptions were that security and demining
services would be provided by the Government of Southern Sudan. Even though the
2005 Comprehensive Peace Agreement ended the North-South civil war, criminal
activities of the Lord’s Resistance Army 9 kept the south in a precarious security
situation, which was further complicated by the nearly two million landmines remaining
from the war. According to a mission official, soldiers from the Sudan People’s
Liberation Army were expected to provide security along the Juba-Nimule route. These
soldiers, however, proved highly ineffective, causing the prime contractor to hire a
security firm, while the road subcontractors had to incorporate security costs into their
bids. Meanwhile, Government of Southern Sudan funding of an existing demining
subcontractor was insufficient, forcing USAID to fund these efforts. As a result, the life
of project budget increased by $11.9 million for security costs and $3.5 million for
demining costs. 10

Adding to the increased costs was the omission of the cost of bridge repairs and initial
road maintenance from the feasibility study. These activities cost $3.0 million.
Moreover, the actual cost of the replacement bridges is estimated to exceed the cost
used in the feasibility study by $10.0 million.

Overall, the 7-month delay in the construction schedule described on page 8 is
estimated to increase the overall project cost by $7.1 million, inclusive of security and
the contractor’s fee. 11 In addition, another $12.0 million in cost increases was due to
various other costs plus the contractor’s fee related to those increased estimated costs.

Finally, a significant portion of the increase in estimated cost from the feasibility study is
also due to a combination of higher unit material costs and larger material requirements
than originally estimated. Table 1 shows how this combination increased overall costs
by $30.8 million for three selected components of the Juba-Nimule road.




9
   The Lord’s Resistance Army (LRA) is a Ugandan insurgent militia led by Joseph Kony and
originating in the Acholiland region of northern Uganda. To escape Ugandan government forces,
Kony and some of his LRA units fled to southern Sudan during the Sudanese civil war, where
their depredations and banditry afflicted numerous villages. While the Sudan People’s Liberation
Army has weakened the LRA in recent years, the LRA still poses a security risk. For example, a
recent United Nations article reported that LRA rebels had allegedly killed more than 100
residents of Western Equatoria since December 2008.
10
   Construction of the Juba-Nimule road is dependent on the United Nations Mine Action Office
(UNMAO) certifying the demining of the road corridor. On April 21, 2009, a UNMAO official
suffered serious injuries when he stepped on an antipersonnel mine during a demining quality
assurance assessment. As of June 30, 2009, a UNMAO board of inquiry has yet to release its
findings on the incident. If the UNMAO requires more extensive demining as a result, then
additional costs will be incurred, as well as possible schedule delays.
11
   Excluding the cost of security and the fee results in a net increased cost due to the delay of
$5.6 million.


                                                                                               9
     Table 1. Comparison of Actual Costs with Feasibility Study for Selected Items


          Cement Stabilizer
                                             Qty (tons)      Unit Rate          Total
          Actual costs                        50,030.24      $ 425.78      $ 21,301,842
          Feasibility study                   31,633.90      $ 285.00      $ 9,015,662
            Difference                                                     $ 12,286,180

          Road Rock Excavation
                                              Qty (m3)       Unit Rate           Total
          Actual costs                        93,773.00      $ 60.26       $   5,651,043
          Feasibility study                   40,000.00      $ 75.00       $   3,000,000
            Difference                                                     $   2,651,043

          Embankment Construction
                                              Qty (m3)       Unit Rate          Total
          Actual costs                      2,376,647.00     $ 6.73        $ 15,997,480
          Feasibility study                    15,000.00     $ 6.50        $     97,500
            Difference                                                     $ 15,899,980

          Total differences, actual costs vs. feasibility study            $ 30,837,203

According to Berger officials, the advent of inflationary pressures in fall 2007—after the
feasibility study but before the tendering of the road construction subcontracts—led to
higher input costs for certain materials. These pressures were most acute in the costs of
cement, aggregates, and fuel, as shown in the unit rate for cement stabilizer in table 1
(which increased 49 percent over the feasibility study estimate). USAID officials
countered that inflationary pressures had only a minor effect on cost overruns.

Lack of Adequate Technical Data –- More significant, Berger officials explained that
the lack of adequate technical data and certain design information at the time of the
feasibility study resulted in the significant underestimating of some material quantities.
For example, once geotechnical surveys were ultimately conducted they revealed that
the subgrade was much weaker than originally anticipated, requiring more material to
build over it. 12 According to Berger officials, this situation contributed to the larger
quantities required for both the cement stabilizer and the embankment construction.
Furthermore, the lack of topographical data meant that the necessary improvements in
the road’s vertical alignment were not adequately forecast, which also contributed to the
much higher material quantities needed for embankment construction. Notwithstanding
the lack of topographical data, USAID officials felt that an appropriate rough estimate for
embankment construction could have been made given drainage and road formation
prerequisites. Finally, the addition of a climbing lane near Nimule in the final design
required additional rock excavation, which was not incorporated in the feasibility study
estimate. 13

USAID engineers in Washington, DC, also criticized the lack of adequate technical data
in the feasibility study. According to these officials, this occurred because Berger did not
12
     The reasons for the delay of these geotechnical surveys are discussed in the next section.
13
     A climbing lane is a separate lane that allows slower travel by large vehicles up a steep grade.


                                                                                                   10
properly implement USAID’s instructions for the feasibility study, including topographical
and geotechnical surveys and related detailed unit cost analysis based on estimated
material quantities. The engineers added that it is often impossible to develop a
“reasonably firm” cost estimate in the absence of such surveys, and noted that they are
usually included in feasibility studies for USAID-funded projects.

In response, Berger officials stated that USAID allowed 8 weeks for completion of the
study, which they asserted was insufficient time to include the desired surveys. To
accomplish the study within the desired time frame, Berger proposed performing the
technical surveys during the detailed design phase. USAID responded by clarifying that
the draft road design guidelines (which addressed geotechnical analysis, among other
things) “were included for reference only at this stage, and not to be fully complied with
during the feasibility study.” 14 Nonetheless, USAID expressed concern that Berger
would not meet the 15 percent targeted precision of actual construction quantities, and
recommended that Berger perform a “minimum amount of surveys” to achieve this
precision, even if it required a “little extra time and resources.”

This basic conflict between the amount of survey work and the precision of estimated
quantities was also reflected in correspondence surrounding review of the feasibility
study. In its initial review, USAID stated that the targeted precision of 15 percent was
not achieved and made several ameliorative recommendations, while Berger believed
that its annexed cost calculations met the required standard. Berger officials reiterated
their proposal to pursue additional design efforts during the detailed design phase, but
offered to perform this additional work during the feasibility study if USAID requested a
time and cost estimate for this extra work. These officials indicated that no such request
was made. USAID officials stated that a cost estimate for the additional work was not
requested because of questions regarding the use of Task Order 1 funds for the
feasibility study and the belief that these funds needed to be conserved through
September 2008. 15 In its final review, USAID noted that it could not endorse Berger’s
conclusion that the targeted precision was met because the study did not involve
“sufficient in-situ testing and engineering surveys.” USAID ended by suggesting that
Berger re-examine its unit cost analysis during the final design and implementation
periods of the project.

The language in Section 3.1 of the Request for Task Order Proposal, which states that
Berger should “consider” the draft road design guidelines in preparing its estimate of
construction quantities, was ambiguous. Berger officials confirmed that they interpreted
the language to be discretionary. Moreover, these officials contended that the available
funding under Task Order 1 was insufficient to obtain the various technical surveys. This
task order was initially funded in September 2006 with $3 million and not increased until

14
   Section 3.1 of the Request for Task Order Proposal states in its entirety: “Consider the
guidelines for road designs given in Section 4 of the annexed draft road design guidelines
(geometric, geotechnical, soils and pavement materials, structures and drainage facilities, utilities,
road safety elements, social/environmental, bridge construction works, land acquisition, etc.) and
prepare preliminary engineering designs and social environmental impacts needed to estimate
the quantity of construction works with a targeted precision of 5% of actual construction
quantities.”
15
   Task Order 1 was established to provide management and administrative services for other
task orders issued pursuant to the Sudan Infrastructure Project. To qualify under Task Order 1,
USAID officials characterized the feasibility study as an “assessment” rather than a “detailed
engineering study.”


                                                                                                   11
December 2008, well after the completion of the feasibility study. According to Berger
officials, the $3 million, however, included only $348,715 for subcontractors, which would
have been necessary for the topographical and geotechnical surveys that Berger could
not conduct with its own resources. The fact that the actual amounts spent for these
surveys during the detailed design phase totaled $1.6 million clearly demonstrates that
the initial $348,715 was inadequate. Moreover, a significant factor that limited the
overall funding initially provided to Berger was that the mission had previously awarded
the vast majority of the initial year’s funds to the United Nations Office of Project
Services. When asked why USAID went forward with an inadequate cost estimate, one
USAID official noted that there was “lots of pressure to move the funds after so much
delay” (further background regarding the project and the events that led to these delays
is presented in appendix III).

Cost Updates – Berger officials have provided USAID with a number of cost updates
over the life of the project. In April 2008, Berger projected that the cumulative
expenditures under Task Order 2 would total $89 million, or less than 3 percent over the
$87 million maximum total cost originally estimated. The magnitude of the actual cost
increase (a $76.8 million—or 88 percent—increase) was not apparent to USAID officials
until August 2008, when Berger officials updated various unit costs based on
subcontracts executed after the feasibility study. However, several of the unit costs that
exhibited the most variation, such as excavation rates, were derived from subcontract
bids that were known in April 2008 but were not included in that update. Furthermore,
the inflationary pressures affecting certain commodities that started in fall 2007 were
omitted from the April 2008 update as well. Berger officials stated that the April 2008
analysis could have been improved if such information was taken into account. It is
notable that these omissions occurred during a period of unsettled leadership in Berger’s
Juba operations (see page 16).

These omissions also affected USAID’s operational planning. USAID officials indicated
that if they had known the significant nature of the cost increases in April 2008, rather
than in August, they would have made a more cogent case for greater funding for the
Juba-Nimule road. Instead, based on the April 2008 projection of $89 million,
infrastructure funds were diverted toward investments in the “Three Areas” south of
Khartoum, which was a priority for the U.S. Government mission in Sudan.

Conclusion – The requirement for a “reasonably firm” cost estimate prior to project
initiation is a prudent, commonsense management practice that is necessary for sound
planning and stewardship of U.S. Government funds. This is reflected in the emphasis
given to the role of the feasibility study by USAID engineers in Washington, DC. As a
result, this audit makes the following recommendation:

   Recommendation No. 1: We recommend that USAID/Sudan develop policies
   and procedures to help ensure that future feasibility studies of USAID-funded
   projects are provided with (a) adequate funding and scheduling, and
   (b) unambiguous instructions regarding the nature and extent of technical
   analyses to be performed.




                                                                                       12
Problems in Bridge Construction
Have Contributed to Higher Costs
Summary: The planned completion dates for the erection of seven new bridges along
the Juba-Nimule road were not met because of delays in foundation construction, which
was exacerbated by poor initial designs. A significant cause of these problems was the
lack of timely geotechnical data. As a result, overall project costs have increased, and
USAID could ultimately bear the cost of potential claims for losses.

One of the major improvements to the Juba-Nimule road will be the erection of seven
durable composite bridges. However, delays in bridge construction and poorly designed
foundations contributed to the higher projected costs of the Juba-Nimule road. These
problems are discussed below.

Delays – The Louis Berger Group, Inc. (Berger), in instructions to its subcontractor for
the construction of the bridge abutments, Civicon, Ltd., stated that it was essential for
the first set of abutments to be ready for the initial bridge positioning (referred to as
“launching”) by September 30, 2008, with the remaining abutments to be completed over
the following 6 weeks. Following this timeline, the bridges were scheduled to be finished
by January 2009.

Despite these initial plans, bridge construction was significantly behind schedule.
According to a Berger official, the bridge launching (conducted by another subcontractor,
Terrain Services) is currently estimated to be finished in July 2009. However, the
bridges are not considered complete by USAID until they pass final inspection and are
formally transferred to the Government of Southern Sudan. During fieldwork, USAID’s
consulting engineer estimated that this would probably occur in late 2009. However,
owing in part to the border delays discussed below, USAID officials now estimate that
this will not occur until early 2010.

The causes for the bridge construction delays were varied and often sequentially related.
For example, geotechnical surveys are critical for the designs upon which excavation
and construction of the abutments are based. USAID provided its consent to Berger to
subcontract for this survey work in February 2008, after Berger awarded the job to a joint
venture. Yet according to a Berger official, the joint venture, which was embarking on its
first significant project with a U.S.-based firm, chose not to form a separate entity such
as a limited liability company to perform the work.             Consequently, preliminary
administrative matters such as obtaining insurance, performance bonds, and letters of
credit had to be pursued separately for each member of the joint venture, delaying
execution of the survey subcontract. The USAID contracting officer’s technical
representative was aware of the delay and wrote to Berger officials requesting an update
as well as an assessment of the effects of the delay on dependent activities. The survey
subcontract was executed shortly after this correspondence, in April 2008, and Berger
remained confident that the bridge program could still be completed on schedule.

The delay in conducting geotechnical surveys, however, did delay necessary design
work, which in turn postponed excavation and construction of the abutments.
Exacerbating this situation was Civicon’s 2-month delay in mobilizing personnel and
equipment; moreover, once the mobilization was completed the staffing and equipment
deployed were inadequate. For example, according to an inspection report prepared by


                                                                                       13
USAID’s consulting engineer, Civicon was working on only one bridge at a time in
December 2008, even though by this point the project was 4 months behind schedule.
In addition, Civicon’s onsite manager was inexperienced, which contributed to the slow
progress. This situation was substantially improved when the audit team toured the
Juba-Nimule road in April 2009 with USAID’s consulting engineer, and observed
evidence of activity at all sites as well as additional equipment and personnel.

Effects of Delays

Despite this accelerated progress, the delays in constructing the bridge abutments led to
corresponding delays by Terrain Services (“Terrain”) in launching the bridge structures.
According to correspondence from Terrain to Berger, Terrain had been underutilizing its
resources during fall 2008 and not achieving billable progress, yet still incurring costs.
Consequently, USAID’s consulting engineer expects that Terrain will ultimately file a
claim against Berger for damages. This claim, according to a Berger official, is likely to
be upheld. The audit team asked Berger officials if the company, in turn, would seek
liquidated damages against Civicon to offset the Terrain claim. While these officials
indicated that Berger would probably do so, USAID officials countered that under a cost-
plus-fixed-fee contract there was no incentive for Berger to refrain from passing the
Terrain costs to USAID. As a result, USAID could ultimately bear the costs of the
potential Terrain claim.

Berger officials indicated that they considered negotiating change orders to eliminate
potential claims at different points in the life of the subcontracts. Ultimately, Berger felt
that it would be best to await Civicon’s completion before embarking on formal
negotiations, since security and border clearance uncertainties could still affect progress.
USAID officials disagreed with this decision. As of the completion of audit fieldwork, the
magnitude of any potential claims was not known.

The border clearance uncertainties referred to above—namely, delays in receiving
customs approval from the Government of Sudan—contributed to the bridge
construction delay. For example, at one point Terrain had six truckloads of material and
equipment detained at the Ugandan border, with one truck there for 6 weeks, after
refusing to pay customs duties. 16 A Berger official estimated that this issue caused a
5-week delay in the bridge construction schedule. In addition, this official indicated that
the two subcontractors would be entitled to time extensions with costs, which he
estimated at $5,000 to $10,000 daily per subcontractor. Since the audit team’s return
from Juba, the border delay issue has been resolved; however, the subcontractors have
not yet submitted a formal claim to Berger officials.

Foundation Designs – Civicon’s original contract with Berger for the construction of
seven bridge foundations on the Juba-Nimule road, worth $3.1 million, was signed in
May 2008. However, in February 2009, Berger modified the contract, increasing the
amount by more than 52 percent to $4.7 million. According to Berger’s request for

16
   According to USAID and Berger officials, these items were supposed to pass through
Sudanese customs duty-free. None of the officials to whom we spoke knew the reason for the
border delays. Some believed that the delays were further retaliation against nongovernmental
organizations in the wake of the March 2009 International Criminal Court indictment of Sudanese
president Omar al-Bashir. Others discounted the theory, speculating that the recent sharp
decline in oil prices forced the government to look for additional revenue elsewhere.


                                                                                            14
USAID consent to both the original and modified agreements, the contract between
Civicon and Berger was characterized as a firm-fixed-price subcontract. In its
justification for modification, Berger noted that the award was made utilizing fixed unit
rates in accordance with Federal Acquisition Regulation (FAR) §36.207(a). 17

The original contract price was based on “notional” or estimated quantities of
construction materials (referred to as a bill of quantities). According to a Berger official,
when the notional bill of quantities was developed there was limited geotechnical or
hydrological information available, requiring various assumptions concerning
construction conditions and their effect on material quantities. Ultimately, Berger
engineers considered the new bridges to be similar to the existing ones in terms of
length, height, and foundation dimensions, and used these assumptions as the basis for
formulating the notional bill of quantities. The quantities in the notional bill of quantities
would be finalized once the foundation designs were completed.

The delay in conducting geotechnical surveys not only delayed the completion of the
foundation designs but also affected their quality. According to a Berger official, the
corresponding lack of geotechnical information caused the foundation designer to adopt
a “conservative” approach in order to ensure safety. As a result, the designs required far
more excavation and materials than necessary, and, if implemented for all seven
bridges, would have resulted in a contract price of $6.0 million. This prompted Berger
staff to prepare new designs for five of the seven bridges, after the original design was
already used in constructing two foundations. These new, optimized designs resulted in
an overall contract price for all seven bridges of $4.7 million. While the unit rates
remained the same as those used in pricing the original award, the quantities associated
with the optimized designs were significantly greater than used in the notional bill of
quantities, resulting in a 52 percent increase in cost. 18

Quality Assurance of Bridge Designs

The design inefficiencies resulting in these cost overruns could have been detected
sooner by both Berger and USAID. The drawings for Bridge Nos. 4 and 5 were dated
August 1, 2008, and August 8, 2008, respectively, and were received by Berger shortly
thereafter. Most significant, these drawings indicated that the concrete quantities for
those two bridges alone were 2,210 cubic meters (m3), whereas the notional bill of
quantities only specified 1,850 m3 for all seven bridges. Even though a Berger official
stated that plan reviews were underway during the fall with design quality assurance
reviews completed in October and November 2008, he said that USAID was not
informed of the looming overruns until late December 2008 or early January 2009. 19

17
   FAR §36.207(a), Pricing Fixed-Price Construction Contracts, reads in its entirety: “Generally,
firm-fixed-price contracts shall be used to acquire construction. They may be priced—(1) On a
lump-sum basis (when a lump sum is paid for the total work or defined parts of the work), (2) On
a unit-price basis (when a unit price is paid for a specified quantity of work units) or (3) Using a
combination of the two methods.”
18
   A former USAID/Sudan contracting officer we contacted was not aware of any provision in the
FAR limiting the magnitude of changes in material quantities for contracts priced using fixed unit
rates.
19
   According to a Berger official, quality assurance reviews were desk reviews where calculations
and assumptions were checked to ensure that the design met minimum safety standards. USAID
officials were disappointed by the extent of these reviews, and had expected that the quality
assurance process would also address cost and efficiency issues.


                                                                                                 15
Furthermore, this official expected Berger field staff in Sudan to apprise USAID of the
increase in quantities as the information became available; however, he found no
evidence that this was done. Similarly, even though USAID officials also received the
drawings for Bridge Nos. 4 and 5 between late August and early September, they also
did not identify the large increase in concrete quantities from those included in the
notional bill of quantities.

For Berger officials, these events occurred within a context of staffing and workload
issues that contributed to their failure to detect the inefficient designs in a timely manner.
Berger, for example, suffered from excessive turnover and lack of continuity in the
crucial chief of party position. Following the resignation of the original chief of party in
June 2007, the position was filled by a Berger official from Washington, DC, until a
replacement was eventually hired and brought to Juba in April 2008. Because of
unforeseen health reasons, this chief of party was evacuated the following month and
did not return. In May 2008, the chief engineer assumed chief of party duties; according
to USAID officials, however, this official was removed in November 2008 for alleged
personal improprieties.       These departures created other staffing problems, as
subordinate officials were elevated to higher-level vacancies. Moreover, these changes
occurred not only during a critical phase of bridge construction, but also when the
contract modality changed from design-build to design-bid-build. As described on pages
7–8, during this period additional duties and responsibilities were given to Berger
officials in Sudan, ranging from a second prequalification exercise to designing the Juba-
Nimule road itself. 20

USAID also experienced staffing difficulties during this time. The USAID contracting
officer’s technical representative who received the preliminary bridge drawings stated
that his collateral duties—which included contracting officer’s technical representative
responsibilities for school and clinic projects conducted by the United Nations Office of
Project Services—did not allow sufficient time to perform detailed reviews of such
submissions.       Furthermore, bridge design is a very specialized activity and
USAID/Sudan technical personnel were admittedly not experts in this field. According to
the contracting officer’s technical representative, his collateral duties also precluded him
from conducting site visits at the frequency desired by other USAID personnel involved
in the project. Exacerbating this constraint was the stationing of technical staff in
Nairobi, Kenya, while USAID facilities were being constructed in Juba. For example, the
contracting officer’s technical representative for the Juba-Nimule road activity did not
permanently reside in Juba until March 2008. Although one USAID official attributed the
bridge cost overruns and delays to insufficient monitoring by the contracting officer’s
technical representative, USAID engineers in Washington, DC, associated with the
Juba-Nimule road project praised the work of the representative and indicated that he
was properly monitoring the activity.

Senior USAID officials in Juba, however, felt that the level of technical oversight afforded
the mission’s road infrastructure activities was inadequate. To rectify this situation, the
mission recruited for a consulting engineer in April 2008 after failing, according to a
USAID official, to recruit a full-time consultant to work in Sudan. The mission eventually
retained the services of a part-time consulting engineer, who started in late 2008 after

20
  An additional consideration is that the Berger chief of party had responsibilities not only for the
Juba-Nimule road, but also for other initiatives under the Sudan Infrastructure Services Project,
such as water, sanitation, and energy activities.


                                                                                                   16
completing a similar assignment in Afghanistan. This action has made a significant
positive contribution to the mission’s road infrastructure activities by providing additional
oversight and technical assistance. However, as of the end of audit fieldwork, the
contract for this consultant did not extend through the estimated completion date of the
Juba-Nimule road. Consequently, this audit makes the following recommendation:

     Recommendation No. 2: We recommend that USAID/Sudan retain a consulting
     engineer at least through the estimated completion date of the Juba-Nimule road.

Current Branding Strategy
Is Ineffective
Summary: Effective branding of USAID projects is an important Agency objective.
However, none of the people interviewed along the Juba-Nimule road were aware that
the project is being funded by the United States. This occurred because community
leaders were not disseminating this information to the grassroots level. Consequently,
opportunities for effective public diplomacy in an area of vital foreign policy interest to the
United States were diminished.

The importance of ensuring that the American people are appropriately recognized for
their generosity in funding U.S. foreign assistance has been a longstanding U.S.
Government objective. For example, section 641 of USAID’s framework legislation, the
Foreign Assistance Act of 1961, as amended, specifies that all programs under the Act
be identified as “American Aid.” More recently, the importance of development in the
United States’ post–September 11 national security strategy increased the need for U.S.
foreign assistance activities to be more fully identified in host countries as being
provided by the United States.

Despite the importance of identifying USAID activities as being provided by the United
States, none of the 22 people interviewed at various places along the Juba-Nimule road
knew that the road was funded by the American people. Moreover, these interviews
typically attracted a number of onlookers, and our questions regarding funding were
addressed to these small gatherings. Even when audit team members asked
respondents if they knew which foreign country was funding the Juba-Nimule road, none
mentioned the United States.

The mission’s current branding strategy for its road infrastructure activities relies on two
main approaches: signage placed prior to bridges and at other points along the road and
direct communication through the contractor’s “community development teams.”
However, both of these approaches were ineffective. None of the respondents gave any
indication that they paid attention to the branding signs; moreover, mission officials
noted that literacy rates in southern Sudan are less than 15 percent. 21 While the signs
did contain the USAID logo and brand name, these would only have been effective in a
highly illiterate environment if viewers were previously aware of the logo’s meaning.
21
  According to the CIA World Factbook, literacy in Sudan as a whole is only 61.1 percent. It is
reasonable to expect that literacy would be even lower in the south given the length of the civil
wars and the disruption of normal education. Furthermore, the ongoing return of refugees to
southern Sudan exacerbates the difficulties inherent in effectively branding USAID projects in the
area, as recently resettled areas may have been bypassed during earlier community development
team briefings.


                                                                                               17
In addition, the community development teams utilized a top-down approach in which
they informed local government officials and tribal elders of numerous issues associated
with the road project, such as the location of the road and any burrow pits, as well as
information regarding project funding. According to a team official, these community
leaders were then supposed to relay this information to the community at large.
However, when the audit team asked this official if he specifically asked those leaders to
pass this information to the community, the official merely responded that he
“mentioned” USAID. It was apparent that without explicit instructions this branding
information was not being disseminated to the community.

The ineffectiveness of the current branding strategy means that people in southern
Sudan are generally not aware that the Juba-Nimule road is being funded by the
American people. Consequently, opportunities to create positive impressions of the
United States are forfeited, hindering public diplomacy efforts in Sudan, an area of
immense foreign policy interest to the United States. As a result, this audit makes the
following recommendation:

   Recommendation No. 3: We recommend that USAID/Sudan revise its branding
   strategy for the Juba-Nimule road project to focus more on direct communication
   with project beneficiaries.


Provision for Executive Order
on Terrorism Financing
Omitted from Subcontracts

Summary: USAID regulations mandate that recipients of USAID assistance include in all
subawards a provision based on Executive Order 13224 designed to prevent the
financing of terrorist activities. Nevertheless, 6 of 15 subcontracts for the Juba-Nimule
road did not contain this provision. This likely occurred because contractor officials
mistakenly relied on other terrorism-related clauses and used templates that omitted the
required language. Consequently, USAID funds could be at increased risk of being used
to finance terrorist activities.

ADS 302.3.6.13 states that U.S. law prohibits transactions with individuals and
organizations associated with terrorism. Consequently, USAID/Sudan’s contract with
the Louis Berger Group, Inc. (Berger) contains the following section, titled “Executive
Order on Terrorism Financing”:

   The Contractor is reminded that U.S. Executive Orders and U.S. law prohibits
   transactions with, and the provision of resources and support to, individuals and
   organizations associated with terrorism.       It is the responsibility of the
   contractor/recipient to ensure compliance with these Executive Orders and laws.
   This provision must be included in all subcontracts/subawards issued under this
   contract.

Notwithstanding this explicit requirement, 6 of 15 contracts between Berger and its
subcontractors that the audit team reviewed did not contain the required provision.
While Berger officials could not definitively state the exact cause, one official believed


                                                                                       18
that the omission was based on a presumption that incorporation of other terrorism-
related clauses would satisfy the above requirement. Neither of these clauses, however,
was as broad as the required language. One clause pertained only to services or
supplies originating in Cuba, Iran, Libya, North Korea, or Syria, while the other referred
only to firms that are owned or controlled by a terrorist country.

Another Berger official stated that the omission could have been due to the use of
different subcontract templates by its Sudan and Washington, DC, offices. According to
this official, subcontracts issued using the field template omitted the required provision,
whereas those issued by Washington, DC, did not. The use of different templates
occurred because contract administrators were previously responsible for ensuring that
all applicable prime contract provisions were incorporated into the subcontracts they
prepared. Furthermore, a checklist was not utilized to assist contract administrators in
this task. Since the beginning of 2009, contractor officials stated that they have
discontinued the practice of using different templates, and now use standardized
subcontract templates that are developed, updated, and reviewed by the contractor’s
legal department.

Contract provisions such as Executive Order 13224 heighten public awareness of
individuals and entities linked to terrorism, and promote due diligence by private sector
entities to avoid associations with terrorists. These benefits are lost at the subrecipient
level if the required provision is omitted from subcontracts. Consequently, these
omissions may increase the risk that USAID funds are used to finance terrorism. As a
result of audit inquiries, Berger officials remarked that they initiated a review of all
current subcontracts to ensure that the required language is included and, where
omitted, to modify those subcontracts accordingly. In addition, this audit makes the
following recommendation, applicable to all of the mission’s programs:

   Recommendation No. 4: We recommend that USAID/Sudan determine whether
   its recipients’ subawards contain the required provision concerning the
   implementation of Executive Order 13224 and require that the recipients
   incorporate the required provision into any subawards from which it was omitted.




                                                                                        19
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Sudan concurred with all four
recommendations and proposed to complete remedial actions by February 28, 2010.
Management decisions were reached on three of these recommendations. An
evaluation of the management comments for each recommendation is shown below.

Regarding recommendation no. 1, USAID/Sudan stated that it will develop internal
guidelines for improving future feasibility studies, including the consideration of options
to separate engineering studies from detailed designs. Consequently, a management
decision has been reached on recommendation no. 1.

In response to recommendation no. 2, the mission reiterated the importance of
engineering consultancy services to the success of the Juba-Nimule road project and
stated that USAID/Sudan will continue its retention efforts. As a result, a management
decision has been reached on recommendation no.2.

In response to recommendation no. 3, USAID/Sudan stated that it will review and revise
the current branding strategy to disseminate more information about the Juba-Nimule
road at the local level. As a result, a management decision has been reached on
recommendation no. 3.

In response to recommendation no. 4, USAID/Sudan indicated that the mission will verify
that the Louis Berger Group has included Executive Order 13224 in all subawards.
Moreover, the mission will remind its other implementing partners of this requirement as
well. While these actions are beneficial, they do not fully address the intent of the
recommendation to determine that all subawards throughout USAID/Sudan’s portfolio
contain the required language on terrorist financing. Given the importance of denying
USAID funds to terrorist individuals and organizations, the applicability of this
recommendation to all of the mission’s programs is appropriate. Consequently, a
management decision has not been reached on recommendation no. 4.




                                                                                        20
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective, which was to determine whether USAID/Sudan’s road
infrastructure activities were achieving their main goals. Audit fieldwork was conducted
at USAID/Sudan from April 22 to May 8, 2009, with additional analysis and inquiries
performed at our office in Pretoria, South Africa, until June 30, 2009. The audit covered
USAID/Sudan’s road infrastructure activities from the inception of the Sudan
Infrastructure Services Project in 2006 through the conclusion of fieldwork. However,
because of a scope limitation, the scope was limited to activities pertaining to the
construction of the Juba-Nimule road.

In planning and performing the audit, the audit team made inquiries relating to the
respondents’ knowledge of actual or suspected fraud in the mission’s road infrastructure
activities. In conjunction, we also assessed the risk of illegal acts. Furthermore, we
assessed management controls for ensuring compliance with applicable laws,
regulations, and policies regarding those activities. Specifically, we reviewed the
following:

   •   Reports required under the Federal Managers’ Financial Integrity Act of 1982
   •   Implementing partner contracts and agreements
   •   Performance measures and results
   •   Contracting officer’s technical representative certifications
   •   Trip reports prepared by mission officials and consultants
   •   Correspondence between officials from USAID and the Louis Berger Group, Inc.
   •   Quarterly progress reports prepared by the Louis Berger Group, Inc.
   •   Cost estimates and projections
   •   The Juba-Nimule Road Feasibility Study

We also conducted interviews with key current and former officials of USAID/Sudan, the
Louis Berger Group, Inc., the Government of Southern Sudan’s Ministry for Transport
and Roads, and the USAID Bureau of Economic Growth and Trade, both in Sudan and
via e-mail. We also contacted the United Nations Mine Action Office (UNMAO) for
information regarding the board of inquiry into the April 21, 2009, mine incident involving
a UNMAO official. The audit was conducted at the offices in Juba, Sudan of
USAID/Sudan, the Louis Berger Group, Inc., and the Ministry for Transport and Roads.
Audit fieldwork was also accomplished during our tour of the Juba-Nimule road and at
stops along the way. Additional analysis and interviews (via e-mail) were conducted at
the offices of RIG/Pretoria upon our return from Juba.




                                                                                        21
                                                                              APPENDIX I


Scope Limitation

A scope limitation existed in this audit. As stated in the Background section, several of
USAID/Sudan’s road infrastructure activities were implemented via agreements with the
United Nations Office of Project Services. ADS 308.3.4 codifies the general principle
that public international organizations, such as the United Nations, are not expected to
subject their books and records to inspection by officials of participating nations.
Consequently, USAID generally relies on the international organization’s management
and internal auditing to account for the use of U.S. Government funds. This
arrangement is present in USAID/Sudan’s agreement with United Nations Office of
Project Services.

Given this limitation, our audit procedures regarding these projects consisted of inquiries
of USAID personnel. We asked selected mission personnel if they:

   •   Had any knowledge or suspicion of fraud in USAID projects conducted by United
       Nations Office of Project Services;
   •   Were able to conduct site visits of these projects;
   •   Received progress reports; and
   •   Were satisfied with United Nations Office of Project Services’ quality assurance
       program and the quality of the road projects thus far.

Respondents reported that they had no knowledge or suspicion of fraud, conducted site
visits, received progress reports, and were satisfied with the quality of the work to date.
As a result, audit risk was assessed as low and no further procedures were considered
necessary.

Methodology
To answer the audit objective, we first interviewed mission officials to determine the
composition and main goals of USAID/Sudan’s road infrastructure activities. In addition,
we also reviewed pertinent documentation, such as the contractor’s performance
management plan and the USAID/Sudan strategy statement. Next, we determined the
best method to assess whether those main goals were being achieved. Since the road
had not been finished, the performance indicators designed to measure the impact of
improvements to the Juba-Nimule road were of little utility for the current audit. As a
result, we concluded that interviews with project beneficiaries, in conjunction with
observations of road use as well as construction progress, would provide the most
competent evidence for answering the audit objective. Therefore, we traveled the entire
length of the Juba-Nimule road in order to conduct interviews and make observations.
We likewise interviewed officials from the Government of Southern Sudan, Ministry for
Transport and Roads, to assist in answering the audit objective. Finally, we examined
quarterly reports prepared by the Louis Berger Group, Inc. (Berger), trip reports
completed by mission officials, and maps and articles published by organs of the United
Nations.

Given the unfinished status of the Juba-Nimule road, we also determined that
assessments of the project’s schedule and projected cost would be of central importance
to users of this report. To this end, we reviewed work plans and cost estimates. We
also interviewed various mission and Berger officials, both in person during our fieldwork



                                                                                        22
                                                                               APPENDIX I


in Sudan and via e-mail after our return to Pretoria. Regarding the delay due to the
change in contract modality, we reviewed correspondence between mission officials in
Sudan and legal advisers on Washington, DC.             In addition, we reviewed the
prequalification reports, dated August 5, 2008, and December 6, 2008, which were
prepared after the respective prequalification exercises. We also consulted with OIG
legal counsel regarding the proper interpretation of applicable sections of the Foreign
Assistance Act of 1961, as amended.

Regarding the road’s projected cost, we analyzed cost estimates prepared by Berger
officials at various points in the life of the project. These included the feasibility study
prepared in May 2007, and updates prepared in April 2008, August 2008, and April
2009. To complement these analyses, we also examined the bid evaluation summaries
for the main road construction subcontracts and unit cost worksheets prepared by
Berger engineers. Furthermore, we developed inquiries for Berger and mission officials
based on these analyses. We also interviewed via e-mail USAID/Washington engineers
who were familiar with the Juba-Nimule road project for their perspective on the
feasibility study, in addition to various other items of audit interest. Finally, we reviewed
correspondence between Berger and USAID officials regarding the feasibility study, plus
the Request for Task Order Proposal No. 1A, which contained instructions for the study.

In addition to the documents named above, the following sources were used to develop
criteria or provide additional information contained in the report:

   •   Federal Acquisition Regulations §36.207, §36.102, and §16.504
   •   The indefinite quantity contract between USAID and the Louis Berger Group,
       Inc., and Task Orders 1 and 2 issued pursuant to that contract
   •   USAID/Sudan’s cooperative agreement with the United Nations Office of Project
       Services
   •   Executive Order 13224
   •   Automated Directives System (ADS) 308, Grants and Cooperative Agreements
       with Public International Organizations
   •   ADS 302, Direct Contracting
   •   ADS 310, Source, Origin, and Nationality

Because of the nature of the audit objective, we did not establish a materiality threshold.




                                                                                          23
                                                                            APPENDIX II



MANAGEMENT COMMENTS


Date:          September 17, 2009

To:            Regional Inspector General/Pretoria, Nathan Lokos

From:          USAID/Sudan Acting Mission Director, Brooke Isham /s/

Subject:       Audit of USAID/Sudan’s Road Infrastructure Activities
               (Report No. 4-650-09-00X-P)


We would like to thank the RIG/Pretoria team for preparing an audit report that is
thorough and will strengthen USAID/Sudan’s road infrastructure activities.
USAID/Sudan is pleased to provide comments on the report including the position of
USAID/Sudan on the recommendations as stated below:

Recommendation No. 1: We recommend that USAID/Sudan develop policies and
procedures to help ensure that future feasibility studies of USAID-funded projects are
provided with (a) adequate funding and scheduling, and (b) unambiguous instructions
regarding the nature and extent of technical analyses to be performed.

USAID/Sudan accepts this recommendation and will develop policies and procedures to
be used as Economic Growth internal guidelines for future feasibility studies. The
policies will benefit future projects to be funded by USAID/Sudan in southern Sudan.
During the development of these policies and procedures, options shall be considered for
the use of independent professional services such as the IQC for A/E services provided
by USAID’s EGAT infrastructure team in order to separate engineering studies from
detailed designs. The development of the policies and procedures is expected to complete
by February 28, 2010.

Recommendation No. 2: We recommend that USAID/Sudan retain a consulting
engineer at least through the estimated completion date of the Juba-Nimule road.

USAID/Sudan accepts this recommendation and will continue to try and retain needed
consulting engineering services. Since 2007, USAID/Sudan made three unsuccessful
attempts to recruit a qualified US PSC engineer to be based in Juba. Before the current
consultant was recruited, USAID/Sudan had also made two unsuccessful attempts to get
an engineering consultant on a short-term basis. The unsuccessful attempts to recruit a
qualified engineer to be based in Juba underscore the need to retain consultancy services


                                                                                       24
                                                                            APPENDIX II


of an engineer who can provide continuity and expertise to the project. The consultancy
services are particularly important in the areas of quality assurance and financial
management.

Recommendation No. 3: We recommend that USAID/Sudan revise its branding
strategy for the Juba-Nimule road project to focus more on direct communication with
project beneficiaries.

USAID/Sudan accepts this recommendation and will review and revise the existing
branding strategy for Juba-Nimule Road to include dissemination of information about
road construction to the grassroots level. The revised strategy will be done by seeking
synergies with other existing USAID programs and possibly by modifying the LBG Task
Order to increase the level of effort for this activity. The revised branding strategy is
expected to complete by February 28, 2010.

Recommendation No. 4: We recommend that USAID/Sudan determine whether its
recipients’ subawards contain the required provision concerning the implementation of
Executive Order 13224 and require that the recipients incorporate the required
provision into any subawards from which it was omitted.

USAID/Sudan accepts this recommendation within the scope of this audit, namely with
regard to the Louis Berger Group contract, and has already begun implementation; Louis
Berger Group has started including Executive Order 13224 clause in all new subawards.
USAID/Sudan will verify that all such subawards include this clause by February 28,
2010. In addition, all USAID/Sudan COTRs will remind implementing partners of the
requirements of this clause to be included in subawards; this will be accomplished by
February 28, 2010.




                                                                                       25
                                                                              APPENDIX III


     Additional Background - Sudan Infrastructure Services Project

Further background on the origin of the Sudan Infrastructure Services Project places the
time and funding constraints on the feasibility study in context. According to a mission
official, the project was conceived on the premise that there could be no economic
growth without an adequate infrastructure, and southern Sudan had few existing
satisfactory roads. As a result, USAID started in 2004 by engaging the World Food
Program to do some basic road rehabilitation work. However, because of delays in
USAID/Washington, the award of a comprehensive program was not approved for 2
years. Meanwhile, USAID engaged the United Nations Office of Project Services
(UNOPS) for road and other infrastructure initiatives. Ultimately, in September 2006, a
contract was awarded to Berger for the Sudan Infrastructure Services Project. By this
time, according to the mission official, most of the initial year’s funding was allocated to
UNOPS activities, leaving only $3 million for Berger and the Sudan Infrastructure
Services Project. This was the funding designated for general management and
administrative functions under Task Order 1. Task Order 2 did not receive its initial
funding, $17.85 million, until August 2007.

As reported in the March 2007 Sudan Infrastructure Services Project quarterly report,
preliminary meetings between Berger and USAID established that funding for the project
would be very limited in its initial stages. The report stated that based on this limitation,
Task Order 1 funding would be used to set up Berger’s core team and initiate limited
operations in Juba, in addition to performing the feasibility study. In this context, our
opinion is that production of the feasibility study became an important barometer of the
mission’s activity on the Juba-Nimule road project at a time when funding was dormant.
Moreover, the slow start due to limited funding contributed to a need to show some
concrete progress to external stakeholders; Berger officials shared this view. Finally, it
was reflected in the comments of one USAID official who, in response to a query as to
why USAID went forward if the cost estimate was not in compliance with Section 611,
noted that there was “lots of pressure to move the funds after so much delay.”




                                                                                          26
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
